<html>
<title> - LEGISLATIVE HEARING ON H.R. 1522, H.R. 1982, AND H.R. 2270</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         LEGISLATIVE HEARING ON 
                  H.R. 1522, H.R. 1982, AND H.R. 2270 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2009

                               __________

                           Serial No. 111-23

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-921 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 



























                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

       Subcommittee on Disability Assistance and Memorial Affairs

                    JOHN J. HALL, New York, Chairman

DEBORAH L. HALVORSON, Illinois       DOUG LAMBORN, Colorado, Ranking
JOE DONNELLY, Indiana                JEFF MILLER, Florida
CIRO D. RODRIGUEZ, Texas             BRIAN P. BILBRAY, California
ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



















                            C O N T E N T S

                               __________

                              May 21, 2009

                                                                   Page
Legislative Hearing on H.R. 1522, H.R. 1982, and H.R. 2270.......     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    20
Hon. Doug Lamborn, Ranking Republican Member, prepared statement 
  of.............................................................    20
Hon. Ann Kirkpatrick.............................................     7

                               WITNESSES

U.S. Department of Veterans Affairs, Bradley G. Mayes, Director, 
  Compensation and Pension Service, Veterans Benefits 
  Administration.................................................    13
    Prepared statement of Mr. Mayes..............................    27

                                 ______

American Volunteer Group (Flying Tigers), Major Ed Stiles, Sr., 
  USAFR (Ret.), Poland, OH.......................................     9
    Prepared statement of Major Stiles...........................    27
Kakos, Anne R. (Mandzak), Yonkers, NY, presenting statement of 
  Elizabeth Yeznach, Galesferry, CT..............................     4
    Prepared statement of Ms. Yeznach............................    22
Kilpatrick, Hon. Carolyn C., a Representative in Congress from 
  the State of Michigan..........................................     6
    Prepared statement of Congresswoman Kilpatrick...............    25
Lowey, Hon. Nita M., a Representative in Congress from the State 
  of New York....................................................     2
    Prepared statement of Congresswoman Lowey....................    21

                       SUBMISSIONS FOR THE RECORD

American Federation of Government Employees, AFL-CIO, statement..    29
Buyer, Hon. Steve, a Representative in Congress from the State of 
  Indiana, statement.............................................    29
Disabled American Veterans, John L. Wilson, Associate National 
  Legislative Director...........................................    30

                   MATERIAL SUBMITTED FOR THE RECORD

Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans 
  Affairs, to Hon. Bob Filner, Chairman, Committee on Veterans' 
  Affairs, letter dated August 5, 2009, transmitting 
  Administration Views for H.R. 2270 and Cost Estimate for H.R. 
  1522...........................................................    32


                         LEGISLATIVE HEARING ON
                  H.R. 1522, H.R. 1982, AND H.R. 2270

                              ----------                              


                         THURSDAY, MAY 21, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Hall, Donnelly, Kirkpatrick, and 
Lamborn.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. The Disability Assistance and Memorial Affairs 
Subcommittee's legislative hearing on H.R. 1522, H.R. 1982, and 

H.R. 2270 will now come to order.
    Would you please join me in rising for the Pledge of 
Allegiance. There are flags at both ends of the room.
    [Pledge of Allegiance.]
    Mr. Hall. I apologize for being late. As Congresswoman 
Lowey knows, we had a bit of news in our districts. This is 
news to all of us, but it affects our districts, mine in 
particular, regarding Stewart Airport security issues.
    Mr. Lamborn, I am sorry. I will recognize you for a minute.
    Mr. Lamborn. Yeah. Thank you.
    I will be back as quickly as I can. An unavoidable thing 
has come up with me, but I do want to hear as much of the 
testimony from the two Members and the other distinguished 
witnesses, so I will be back as quickly as possible. Thank you.
    Mr. Hall. Okay. Thank you, Ranking Member Lamborn.
    Congresswoman Lowey, I understand you also have to leave 
soon. Today, we are considering and hearing testimony on three 
bills, H.R. 1522, H.R. 1982, and H.R. 2270, that were recently 
referred to this Committee.
    The first bill we will discuss is ``The United States Cadet 
Nurse Corps Equity Act'' or H.R. 1522 introduced by 
Representative Nita Lowey. If enacted, it would grant veteran 
status to the members of the United States Nurse Cadet Corps of 
World War II, thereby making them eligible for benefits and 
services administered by the Department of Veterans Affairs.
    I commend Congresswoman Lowey for her 13-year commitment to 
these nurses and I welcome her and Cadet Nurse Elizabeth 
Yeznach. Is that correct?
    Mrs. Lowey. Elizabeth Yeznach took a slip on the wax floor 
outside, so we will submit her statement for the record. Anne 
Kakos from Yonkers, another constituent, will speak in her 
place.
    Mr. Hall. Ann, welcome. I trust that Elizabeth is receiving 
prompt----
    Mrs. Lowey. Immediately.
    Mr. Hall [continuing]. Capable care and I hope that she 
recovers from her fall. In order to move along, I will save the 
rest of my statement on the other two bills. Okay. Since 
Representative Carolyn Kilpatrick also has to leave, we will 
talk just briefly about that second bill on the agenda.
    Let me just elucidate that this bill, H.R. 1982, the 
``Veterans Entitlement to Service (VETS) Act of 2009,'' 
sponsored by Representative Carolyn Kilpatrick directs VA to 
acknowledge receipt of medical disability and pension claims 
and other communications submitted by veterans within 60 days.
    As many of you recall, this Subcommittee, jointly with the 
Subcommittee on Oversight and Investigations, conducted an 
investigatory hearing on thousands of pieces of mail which were 
found unprocessed at Regional Offices (ROs) during mail amnesty 
periods in 2007.
    We continue to keep an eye on this serious problem and 
other claims processing irregularities that have plagued the VA 
over the last 2 years. I am looking forward to hearing how this 
bill will improve upon the Veterans Claims Assistance Act or 
VCAA requirements that are already codified in statute and in 
the procedural instructions outlined in VA's regulations.
    I thank Congresswoman Kilpatrick for her activism in this 
area and look forward to her testimony.
    I will save my comments on H.R. 2270 until after this panel 
has spoken in the interest of time.
    [The prepared statement of Chairman Hall appears on p. 20.]
    Mr. Hall. Your full statement is entered in the record. Our 
colleague and friend, Congresswoman Nita Lowey, you are now 
recognized for 5 minutes.

STATEMENTS OF HON. NITA M. LOWEY, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF NEW YORK; ACCOMPANIED BY ANNE R. (MANDZAK) 
KAKOS, YONKERS, NY, PRESENTING STATEMENT OF ELIZABETH YEZNACH, 
GALESFERRY, CT (WORLD WAR II CADET NURSE); AND HON. CAROLYN C. 
  KILPATRICK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                            MICHIGAN

                STATEMENT OF HON. NITA M. LOWEY

    Mrs. Lowey. Well, I thank the Chairman. And I am truly 
honored to be before your Subcommittee.
    You have been an extraordinary Chairman. And in the short 
time that you have taken leadership, you have done so much to 
improve life for our veterans. And I want you to know that all 
of us are aware of your incredible accomplishments and I am 
very, very appreciative.
    And I thank the Committee for holding the first hearing on 
the ``United States Cadet Nurse Corps Equity Act'' today. I 
offered this legislation in 1996 to recognize and honor the 
service of women who served with distinction in the Cadet Nurse 
Corps.
    Sixty-six years after the end of World War II, recognition 
parallel to their great sacrifice and commitment has not been 
given to the cadet nurses. At a time when our country has been 
called to serve by our new Administration, it is fitting to 
adequately express our gratitude to those who have served our 
country during one of the most challenging eras.
    With few opportunities to serve in the military, many young 
women joined the U.S. Cadet Nurse Corps during World War II to 
fill the domestic nursing shortage in our country. H.R. 1522 
will ensure that the many women who served our country the best 
way they could receive the acknowledgment of veteran status 
that they deserve.
    Other women's groups who served in World War II have 
rightfully been granted veteran status and benefits. Despite 
the historic and patriotic contributions, the women of the U.S. 
Cadet Nurse Corps have been forgotten.
    The legacy of the Cadet Nurse Corps is manifold, felt by 
all Americans, but understood by few. Many cadet nurses were 
deployed to Army, Navy, public health facilities, and Indian 
Health Agencies during their senior cadet services.
    As a result, World War II military veterans came home to a 
strong health care system and were provided critical care by 
cadet nurses. In order to properly recognize their patriotism, 
the cadets should be designated as veterans.
    Three dedicated patriots who served in the Cadet Nurse 
Corps are here today. My constituent, Anne Kakos, from Yonkers, 
New York, served as a cadet nurse from 1943 to 1946. Caroline 
Bradford of Mechanicsville, Maryland, served as a cadet nurse 
from 1943 to 1946. And both their stories in addition to others 
have been submitted for the record. And certainly we have Anne 
Kakos here who is going to say a few words.
    And would Caroline Bradford please stand up. Thank you for 
joining us today.
    Let me say this. I am very disappointed that Elizabeth 
Yeznach, whose statement will be entered in the record, had a 
fall, as I mentioned, as she walked down the hall right 
outside. After looking forward to this day, unfortunately the 
doctors prevailed and she could not testify.
    But Anne Kakos, as I mentioned, from Yonkers, New York, 
will say a few words. And we appreciate your coming here today. 
Anne Kakos.
    [The prepared statement of Congresswoman Lowey appears on 
p. 21.]
    Ms. Kakos. Thank you.
    Mr. Hall. Please push the button on your microphone. There 
you go. Welcome, Ms. Kakos.

STATEMENT OF ELIZABETH YEZNACH, GALESFERRY, CT, AS PRESENTED BY 
                    ANNE R. (MANDZAK) KAKOS

    Ms. Kakos. Good morning. I am reading this statement. And I 
am privileged to talk on behalf of us and I appreciate that we 
are here and we are being heard. And as Congresswoman Lowey 
says, this is the first time we have been heard and it is a 
wonderful feeling.
    I am going to read it, but I am going to insert my name. My 
name is Elizabeth Yeznach, but Anne Kakos is speaking for her 
in this hearing.
    I am here on behalf of the 180,000 women of all races and 
ethnicities who served our country during World War II as 
members of the United States Cadet Nurse Corps. I myself served 
as a cadet nurse from 1943 to 1946 at St. Francis Hospital in 
Hartford, Connecticut.
    First, I would like to extend a heartfelt thank you to 
Congresswoman Nita Lowey for consistently introducing the 
``United States Cadet Nurse Equity Act'' through the years. You 
kept our hopes alive that some day the Cadet Nurse Corps would 
be recognized as veterans.
    This hearing brings us one step closer and I am grateful to 
the Subcommittee on Disability Assistance and Memorial Affairs 
for holding this hearing.
    I would also like to thank all of the other Congresspersons 
who cosponsored this legislation year after year, including the 
Chairman of the Committee on Veterans' Affairs, Bob Filner.
    During World War II, our Nation faced a desperate shortage 
of nurses on the home front and a decline in nursing school 
enrollment ensued during that time.
    Nurses who enrolled in the military left a dearth of nurses 
in civilian facilities and as the war continued, the shortage 
of nurses became acute both at home and overseas.
    The Federal Government established the United States Cadet 
Nurse Corps in 1943 to recruit young women, teenagers mostly, 
to become nurses, 180,000 of whom provided 80 percent of the 
nursing care in our country during this war.
    The United States Cadet Nurse Corps offered an innovative 
solution to the pressing shortage of nurses during World War 
II. Without us, our domestic health care system could have 
collapsed and resulted in a sick and demoralized Nation.
    We were deployed to the Army, the Navy, the public health 
facilities, the Indian Health Agency, the veterans hospitals. 
We abided by all the rules that were applicable to the 
military, such as wearing uniforms, and we were required to 
pledge 36 months of service and until the end of hostilities. 
Yet, our contributions and commitments during a tense time in 
our country's history remains virtually unknown.
    We, the cadet nurses, worked tirelessly to care for sick 
civilians and injured troops. We were exposed to infectious 
diseases and deaths, worked 12-hour shifts 6\1/2\ days a week, 
and cared for as many as 50 patients simultaneously.
    During this time, we had a very bad situation, which we 
call the polio era and very deadly situations and paralysis 
ensued.
    As a cadet nurse and student at that time, I remember the 
stress of providing--I am speaking for Elizabeth--providing 
emotional and physical support to multiple patients and other 
families who faced major trauma and tragic events.
    For example, the Hartford Barnum and Bailey Circus fire of 
1944. Cadet nurses were charged with providing complex care and 
attention to the many injured while they endured painful and 
prolonged treatments.
    During my time as a cadet nurse, I gained strong clinical 
experiences and skills in providing complete care both 
physically and emotionally in challenging settings. That goes 
for all of us because we had many challenging situations.
    And in my case as Anne Kakos, we had troops coming through 
our area in trains and many times, they were taken off the 
trains and brought to our hospitals.
    Other women in World War II military services, the Women's 
Army Corps, the Women Accepted for Voluntary Emergency 
Services, and the Women Air Force Service Pilots have 
rightfully been granted veteran status and benefits.
    Despite our historical and patriotic contributions, we, the 
women of the United States Cadet Nurse Corps, are consistently 
dismissed and forgotten. We are not seeking special 
recognition, just equal recognition.
    Many former cadet nurses have already passed away and, 
unfortunately, I do not know how many remain. What I do know is 
that we are passing on at the same rate as those of that 
generation with all former cadet nurses now in their 80s, 
octogenarians.
    Passing the legislation is more important now than ever 
before as 66 years have passed since the inception of the 
United States Cadet Nurse Corps, introduced as Public Law 74 by 
President Franklin Delano Roosevelt, was founded and our 
service remains unrecognized.
    We came forward to help our country through a difficult 
time and we are proud and patriotic to know that as a part of 
our uniformed service, we contributed to America's victory in 
World War II. We believe that. Therefore, after all the 
commitments and contributions, if we are not veterans, can you 
tell us what are we?
    Thank you. And, again, I appreciate you hearing us for the 
first time. Thank you.
    [The prepared statement of Ms. Yeznach appears on p. 22.]
    Mr. Hall. Thank you, Ms. Kakos and Congresswoman Lowey.
    Mr. Donnelly, I believe, would like to make a brief 
statement.
    Mr. Donnelly. Thank you, Mr. Chairman.
    And I heard your comment to ``tell us what we are.'' You 
are not only veterans, you are heroes. And our Nation is 
grateful to you for your service.
    My mother-in-law, Virginia Truitt, served in the WAVES and 
it was one of the things that she was proudest of in her life.
    And so the contributions you made and your fellow members 
are what helped us to win this war and this war that saved our 
country and the world. So we are in your debt. We are in your 
gratitude and thank you very much for your service.
    Mrs. Lowey. Thank you again.
    Mr. Hall. Thank you, Mr. Donnelly.
    I would echo that sentiment and say, first of all, thank 
you and all of your colleagues. Our prayers are with Elizabeth 
Yeznach and a speedy recovery from her injury to her wrist.
    I think you told me that you have a time problem also so we 
will send questions, if we have questions about the legislation 
in writing to you, if that is acceptable.
    Mrs. Lowey. Thank you very much, Chairman Hall, and thank 
you to the Members of the Committee. We look forward to the 
bill's passage and we appreciate your comments and your 
thoughts.
    We thank you, Anne Kakos, for coming here today. Thank you.
    Ms. Kakos. You are welcome.
    [Applause.]
    Mrs. Lowey. And thank you for doing our job.
    Mr. Hall. Congresswoman Kilpatrick, your statement is 
entered in the record. We now recognize you for 5 minutes on 
H.R. 1982.

            STATEMENT OF HON. CAROLYN C. KILPATRICK

    Ms. Kilpatrick. Thank you, Chairman Hall. And to Minority 
Ranking Member Lamborn, who is absent, to the full 
Subcommittee, thank you for holding the hearing.
    My father is a Navy World War II veteran, so I stand here 
in support of the nurses who served during that war and that 
they might become full veterans and receive all the benefits 
that veterans receive.
    I come to you this morning introducing H.R. 1982, the 
``Veterans Entitlement to Service Act.'' We call it ``The VETS 
Act of 2009.'' And what it simply does is says that every 
veteran that files a complaint, that the Veterans 
Administration must within 90 days, excuse me, 60 days--90 days 
was the bill I am going to talk about, your bill that you 
passed, the ``Veterans Benefit Improvement Act of 2008,'' which 
is an outstanding bill.
    I applaud this Committee, as well as the full Chairman, 
Chairman Filner, and all the work of the Veterans' Affairs 
Committee. You are by far one of the most important Committees 
in this Congress and I appreciate all of you.
    This bill says that the Veterans Administration must, 
within 60 days, acknowledge in writing to the veteran that they 
have received their claim.
    I have been getting a lot of letters from my veterans' 
community that they sometimes never hear and these are people 
who come back with post-traumatic stress disorder (PTSD) and 
other ailments not so severe on claims.
    You all in your report, and I am glad you are having this 
study, that you are having now that ``The Veterans Benefit 
Improvement Act'' requires.
    In my own city of Detroit, I am told that there were 16,000 
claims that you all found in the study that you did and in 
other places around this country that were shredded, thrown 
out. So those 16,000 vets will never be notified, number one, 
and never be--have to reinvent their claims in the first place.
    So what H.R. 1982 does is says that the Veterans 
Administration must, in writing, notify the veteran that they 
have received their claim. Your bill, the ``Veterans Benefit 
Improvement Act,'' says 90 days they must make a determination. 
And I think that is absolutely paramount. We are fighting two 
wars, not to mention World War I, II, Vietnam, Korea, and all 
the others.
    The claims must be received. You can just imagine the 
stress that the families--and I want to again thank the 
Veterans Affairs Committee for also including families in 
services. I am right now, as we speak, in a Department of 
Defense (DoD) appropriations hearing on health care for the 
active and the Reserves, as well as some of the veterans. And 
though we do spend money, we are not yet sure how much we will 
be spending when we finish, God help us finish, Iraq and 
Afghanistan conflicts.
    So I am here today asking if this Subcommittee, Chairman 
Hall, and your Members would take this bill to full Committee, 
report it out. Make sure that our veterans are taken care of. 
They commit their lives to our country.
    I recently returned from Washington State with Chairman 
Norm Dicks and saw the young sailors, saw the Marines, the 
young Army vets who give their lives to us, the active and the 
Reserves.
    So today please pass H.R. 1982. Please send it to full 
Committee. Please report it out. Our veterans deserve no less. 
They give for our country. They sacrifice their lives. The very 
least we can do is provide them an answer in a timely manner, 
not shredded material or never to hear from again. They serve 
us. They represent us in some of the most difficult theaters in 
this world.
    And I ask you pass the ``Veterans Entitlements to Service 
Act'' notification. Some say it does not go far enough and it 
does not. We wish we could in 60 days get back to them. Some 
say the staffing in the Veterans Administration is low. Let us 
staff it up. A claim, the very least we can provide our vets is 
an answer that we received it and in 90 days, act upon it to 
keep the families whole after all the stress they have been 
under.
    Thank you, Chairman Hall. Thank you, Members of the 
Committee. I look forward to working with you.
    [The prepared statement of Congresswoman Kilpatrick appears 
on p. 25.]
    Mr. Hall. Thank you, Ms. Kilpatrick. It is a simple and 
sensible bill and I applaud you for bringing it forward.
    I do not know if there are any questions from my other 
Members up here. If we have any, we will send it to you.
    Ms. Kilpatrick. We are ready and able to assist you.
    Mr. Hall. I am sorry. Excuse me. Mrs. Kirkpatrick has a 
statement.
    You are recognized now, please.

           OPENING STATEMENT OF HON. ANN KIRKPATRICK

    Mrs. Kirkpatrick. Thank you, Chairman.
    Thank you, Representative Kilpatrick. As a Kirkpatrick, I 
appreciate your work.
    And I just wanted to tell you I came back from Afghanistan 
meeting with our men and women serving there. And they have 
earned the right. This is not a handout. This is not a 
giveaway. They have earned the right to have health care, to 
have their claims received and notification. So I applaud you 
for your effort.
    I do not think we can do enough for them, but I really, you 
know, really want to--and you made your point so well that, you 
know, they have earned it. They served their country very 
selflessly and their families make such a sacrifice as well.
    So we were there on Mother's Day. We wanted to spend 
Mother's Day with the men and women in the service who could 
not be with their families on that day. And it was so inspiring 
to hear from them, their professionalism, their level of 
dedication, their commitment. And so they have earned the right 
to be treated well when they come back and are out of the 
service.
    And so thank you again for what you are doing. I appreciate 
that.
    Thank you, Chairman.
    Ms. Kilpatrick. Thank you. Thank you very much.
    Mr. Hall. Thank you, Congresswoman.
    I would just say once again that, especially after the mail 
amnesty, the 16,000 pieces of missing mail, and the incidences 
of shredding that we have heard of at various ROs, that the 
burden of notification, at this point, is on VA to let veterans 
know, yes, we got your communication. It is simple enough.
    In the New York RO, we also have heard stories, and seen 
evidence of backdating of claims. So, your bill would make that 
more difficult to do obviously. It is kind of like return 
receipt requested, except we are not making the veteran pay for 
it.
    Ms. Kilpatrick. I agree. Human bodies, lives, families, you 
know, we owe them that.
    Mr. Hall. I, too, was in Iraq and Afghanistan over our last 
recess and I agree that we should not put these men and women 
through more of a battle after they get home from the battle.
    So, I thank you. If we have any further questions about the 
language, we will communicate with you in writing. Thank you 
for your testimony and for your bill. We will excuse you now 
from the panel.
    Next the Committee will consider the ``Benefits for 
Qualified World War II Veterans Act of 2009,'' H.R. 2270, which 
would establish a compensation fund for payments to qualified 
World War II veterans with ``such sums as may be necessary.''
    At a recent May markup, Ranking Member Buyer brought to my 
attention and the attention of the Committee, that there are 
perhaps other groups of World War II veterans who should be 
entitled to the same benefits that H.R. 23 would provide for, 
the forgotten service of Merchant Mariners of World War II.
    And, he followed up on that hearing by introducing H.R. 
2270, which we are going to hear testimony about today.
    It is my pleasure to welcome here today Mr. Ed Stiles, one 
of the surviving Flying Tigers, who will explain to us how 
Ranking Member Buyer's bill will help him and his generation of 
veterans. So, I would invite Mr. Stiles to join us at the 
witness table.
    There is the center microphone there and one name card for 
you, Mr. Stiles.
    Okay. Yes. Minority Counsel has asked me to submit a 
statement into the record from the Ranking Member of the full 
Committee, Steve Buyer. Without objection, it will be done.
    [The statement of Congressman Buyer appears on p. 29.]
    Mr. Hall. So, Mr. Stiles, thank you for your service and 
thank you for coming here to testify to us today. Your written 
testimony is part of the record, so feel free to deviate or 
not, whatever you choose. You are now recognized for 5 minutes, 
sir.

STATEMENT OF MAJOR ED STILES, SR., USAFR (RET.), POLAND, OHIO, 
     ON BEHALF OF AMERICAN VOLUNTEER GROUP (FLYING TIGERS)

    Major Stiles. Chairman Hall and Ranking Member Lamborn, the 
Members of the Subcommittee, my name is Ed Stiles, Sr., and I 
am pleased to have the opportunity to appear before you today 
on behalf of my comrades both living and deceased of the 
American Volunteer Group known as the AVG, also known as the 
Flying Tigers.
    I am here today to express the AVG's support for H.R. 2270. 
I am here today for the ``Benefits for Qualified World War II 
Veterans Act of 2009.''
    H.R. 2270 would provide $1,000 a month to qualified Flying 
Tigers and members of the other 28 World War II civilian groups 
that were given veteran status under the process set up by the 
``GI Bill Improvement Act of 1977.''
    While I am not eligible for this payment, I am here to 
represent the other Flying Tigers who are eligible.
    Between June 27, 1941, and June 27, 1942, I had the 
distinct pleasure of serving as a Crew Chief for the AVG. We 
served the Chinese government in attacks against Japan before 
and after Pearl Harbor.
    Our pilots eliminated 297 enemy aircraft of which 229 were 
done in the air. There were approximately 80 pilots that flew 
for us, 19 of which were aces. Twenty-two of these brave pilots 
died in service and there was one Crew Chief.
    My charge was the maintenance of the P40 airplane, to 
service each aircraft so that our pilots had a reliable 
aircraft with which to locate and destroy Japanese targets, 
which at that time were decimating the Burma Road, the supply 
routes, and the Chinese mainland, including all their big 
cities.
    My first contact with the AVG was while I was in the Army 
Air Corps stationed at Mitchell Field in Long Island, New York. 
A representative came to our base carrying a signed document 
from President Roosevelt granting those interested in going to 
China under the command of Superior Air Tactician, Retired 
General Claire Chennault, to fight back the aggression of the 
Japanese Air Corps, with a $350 monthly salary and an honorable 
immediate discharge from my position.
    The experience I had during my contracted time with the AVG 
Flying Tigers could never be expressed fully today in my 
allotted time. The friendships and military bonds that we 
created have sustained me for the past 68 years.
    Please understand that the mission that the AVG members 
undertook ultimately slowed Japanese aggression in the Pacific 
theater and also revitalized the morale of the American people.
    I felt proud and rewarded, along with my fellow AVG 
members, the day we received the Bronze Star Medal on December 
8, 1996. And, of course, the pilots received the Distinguished 
Flying Cross.
    We served our country with honor and gallantry and many of 
our members did not receive the World War II GI Bill. However, 
I did not come here to seek sympathy, but to seek equity.
    It is not my place to say that members of the AVG are more 
or less deserving as members of the Merchant Marine, but I 
believe that if Congress is going to provide service pensions 
for the Merchant Marines that they should provide this pension 
to the living members of all 28 groups, including my comrades 
in the AVG.
    Mr. Chairman, H.R. 2270 provides this equity and has my 
full support.
    This concludes my statement and I appreciate being given 
this opportunity to answer any questions you or others of the 
Subcommittee may have.
    Thank you.
    [The prepared statement of Major Stiles appears on p. 27.]
    Mr. Hall. Thank you very much for your service and your 
testimony, Mr. Stiles.
    Since you joined the military and were offered the 
opportunity to take advantage of the benefits that come with 
military service, do you feel that other Flying Tigers who did 
not join the United States Armed Forces should have the same 
access to benefits?
    Major Stiles. I am not sure I understand what your question 
is asking, but I believe that all those that served in any 
capacity in civilian status and were also--keep in mind the 
Flying Tigers were civilians at the time they were fighting in 
China, not in the military Air Corps at that time.
    Mr. Hall. I understand, sir. You were in the Army Air Corps 
yourself before you were given an immediate honorable discharge 
in order to go fight in China against the Japanese, is that 
correct?
    Major Stiles. Yes. I was in the 8th Pursuit Group on the 
East Coast at Mitchell Field, Long Island, 36 Pursuit Squadron. 
We had P36s with radial engines which was the fighter at that 
time. The airplanes that we received were turned down by the 
British and did not have the equipment that should have been 
installed when they came out of the factory.
    And we in Rangoon, Burma, had to--we had the services of a 
Curtis Wright employee and we had to put in the armament, the 
communication equipment that we had to procure besides the 
airplane. This is not well known, but this is what happened. 
And this is the way the airplanes, the ``P40,'' was not 
equipped when we received them from the boats in Rangoon, 
Burma.
    Mr. Hall. Thank you, Mr. Stiles.
    Do you know how many members of the Flying Tigers served in 
our United States Armed Forces before they became part of the 
AVG?
    Major Stiles. Every one of the persons that I met in the 
Flying Tigers were at one time in the military service of our 
country. They were not people that were brought in off of the 
street or some other place, or country. They were in the U.S. 
military at the time. We had been called a bunch of renegades 
and maybe a few other names, but we were all personnel of the 
military in 1941.
    Mr. Hall. And in all seriousness, I am just curious because 
I am a fan and a history buff, too. I was wondering did you 
paint the jaws and teeth on the nose of the plane yourself or 
is that a movie recreation of the P40s you flew?
    Major Stiles. If you are referring to the movies, in that 
there was a movie that was called the ``Flying Tigers,'' it 
came out when the world heard about the Flying Tigers, that was 
``strictly Hollywood.'' We had none of that.
    Mr. Hall. I know you are good at a lot of things if you can 
install armor and electronics. And I am glad you did not have--
--
    Major Stiles. John Wayne was quite a fellow, but he was not 
with the Flying Tigers.
    Mr. Hall. Yeah. Okay. Thank you.
    I just actually have a question for Minority Counsel. If 
there is a number, officially a population number of Flying 
Tigers. Are you or is Mr. Buyer, to your knowledge, aware of 
members of the Flying Tigers who were not in the armed forces 
first before they became members of the AVG or a cost estimate 
for H.R. 2270?
    Mr. Lawrence. I am told there is at least one member of the 
Flying Tigers that did not have a military affiliation that was 
granted veteran status. And as far as the cost estimate, we are 
still working on that, sir.
    Mr. Hall. Okay. Thank you.
    Have you or has Mr. Buyer, to your knowledge, been 
contacted by anyone who is eligible for these benefits who is 
not also eligible for VA benefits currently?
    Mr. Lawrence. No.
    Mr. Hall. Okay. Mr. Donnelly?
    Mr. Donnelly. Thank you very much.
    Mr. Stiles, thank you for your service. And the rumor we 
heard was that John Wayne was with the California Division of 
the Flying Tigers. Is that true?
    Major Stiles. No.
    Mr. Donnelly. You were a member of the Army Air Corps----
    Major Stiles. Yes.
    Mr. Donnelly [continuing]. When you were at----
    Major Stiles. Yes, sir.
    Mr. Donnelly [continuing]. Mitchell Field, right? And then 
the letter came from President Roosevelt stating if you would 
like to do this, you are more than welcome to do so?
    Major Stiles. Yes. Correct.
    Mr. Donnelly. Go ahead. I am sorry.
    Major Stiles. And this was handled by a company called 
CAMCO, the Central Aircraft Manufacturing Co., that had a place 
on the Burma/China border called Lijiang. They had a repair 
facility for Chinese aircraft, whatever they had, which was not 
much. And it consisted of maybe a Russian bomber here and 
there, which did not do any bombing, but that is what they were 
working with. China had no Air Force, none at all.
    Mr. Donnelly. And, in effect, the letter from the 
President, if that was me, I would feel that that was like the 
seal of approval to take this action and to head to China when 
the President is telling you, hey, if you want to do this, go 
right ahead.
    Major Stiles. If my understanding is correct, and I believe 
it is, China, before Chennault took it over--in fact, he had 
tried some kind of this, you know, catch as catch can, you 
know, of pilots around the world that wanted to fight and get 
into the action in the China theater. And none of them turned 
out very well.
    Mr. Donnelly. And your presence in China really helped the 
American war effort by slowing down the Japanese and by causing 
them endless difficulties; did it not?
    Major Stiles. From the press report, and, of course, I was 
in China at the time, and we were always 1 day later than what 
it was over here for the international date line, and we heard 
about Pearl Harbor when we were there. And we were mortified.
    Here we thought we were going to deal and fight the 
Japanese that were bombing the Burma Road and some of their big 
cities like Kunming and Chunging or maybe Shanghai. And that 
was not so.
    [The following was subsequently received from Major 
Stiles:]

      I lost my train of thought there.

    Mr. Donnelly. That is quite all right.
    Major Stiles. But we----
    Mr. Donnelly. The things you were doing----
    Major Stiles. To sum it up, to sum up our service in China, 
as far as the American volunteers were concerned, and we were 
volunteers, every one of us, and everyone that I know was from 
the military except one fellow, who was a German mechanic that 
was brought over there, and he was responsible for putting 
together a Japanese Zero that was captured until we found out 
what kind of a fighter they had. I cannot even remember his 
name now.
    [The following was subsequently received from Major 
Stiles:]

      The fellow was a German refugee named Gerhart Neumann.

    Mr. Donnelly. Did you----
    Major Stiles. Chennault insisted and did get citizenship 
for this individual. Now, of course, he was not in the 
military. He was one of those dislocated Germans that Hitler 
was trying annihilate. And he ended up over there.
    Mr. Donnelly. Sir, do you have any family here with you 
today or any relatives? I saw the gentleman with the beard in 
the back. I did not know if you were with him.
    But I would encourage any of your family--I do not know if 
you have heard about the Living History Program, but we would 
love to have your story tucked away safely in the Library of 
Congress for generations to come so they can know what heroes 
and wonderful patriots we had serving our country back then.
    Major Stiles. Well, thank you very much. I am honored to be 
able to talk to you today and tell you my experiences for 
whatever they are worth.
    We did the best we could with whatever we had at a time 
when our military was getting the worst that was happening, 
bombing, dying, Chinese. It was inhumane what was going on in 
China. And you had to be there to really get the feeling of it, 
not the press. Press did the best they could, but they did not 
really tell you the story and that is always the case.
    Mr. Donnelly. It is my honor to have a chance to be here 
with you today, sir. Thank you.
    Mr. Hall. Thank you, Mr. Donnelly.
    Mr. Stiles, before we let you go on the rest of your day, 
I, too, want to thank you and ask, is there an association of 
the Flying Tigers at the AVG? You said you had friendships that 
have lasted through the years since that time. Is there an 
association, a club, a group, organized group of your 
colleagues?
    Major Stiles. Well, as you may or may not know, talking to 
Mr. Clark, we all did the best with what we had and tried to 
keep the war effort for what it was worth in China. And in my 
own personal opinion, if they would not have dropped the atomic 
bomb when 
they did, we would have been over there again fighting and winni
ng.
    But I could tell you many stories about what really did 
happen when it comes to find out that your armament people had 
their own type of ammunition for 30 caliber machine guns and 50 
caliber machine guns and they were different kinds. And this 
stuff was brought up through the Burma Road.
    And China came so close, so close to being knocked out of 
the war completely. And if it was not for the Flying Tigers, I 
do not know what would have happened if China was completely 
knocked out of the war.
    Mr. Hall. Well, obviously if they had been, then Japan 
would have been able to concentrate more of its military power 
against us and that was a close enough call anyway as things 
turned out.
    So obviously your service was critical to the war effort. 
And we thank you for your bravery. I understand that you were 
not only a Crew Chief but also a pilot, is that----
    Major Stiles. If any of the Subcommittee has any questions 
that they would like me to answer, I am available. Thank you.
    Mr. Hall. Okay. Well, we will submit them in writing to 
you, sir, if we do. Thank you again so much for testifying.
    [Applause.]
    Mr. Hall. Now we would like to call our third panel, 
Bradley G. Mayes, the Director of Compensation and Pension 
Service, from the Veterans Benefits Administration, U.S. 
Department of Veterans Affairs; accompanied by Mr. Richard 
Hipolit, the Assistant General Counsel for the U.S. Department 
of Veterans Affairs.
    And, I will just also mention that we also have submissions 
for the record from the American Federation of Government 
Employees (AFGE) and the Disabled American Veterans (DAV).
    [The statements of AFGE, and DAV appear on p. 29 and p. 
30.]
    Mr. Hall. Mr. Mayes, Mr. Hipolit, it is always good to see 
you again. Welcome back. Your full statement is entered in the 
record. You are now recognized for 5 minutes.

   STATEMENT OF BRADLEY G. MAYES, DIRECTOR, COMPENSATION AND 
    PENSION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY RICHARD HIPOLIT, 
  ASSISTANT GENERAL COUNSEL, OFFICE OF GENERAL COUNSEL, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Mayes. Thank you, Mr. Chairman, Mr. Donnelly.
    First of all, I would like to thank you for inviting me 
here today to really be a part of history and to listen to Mr. 
Stiles and the cadet nurse that talked about her experience. I 
feel privileged to be here.
    I am here today to provide the views of the Department of 
Veterans Affairs on H.R. 1522, the ``United States Cadet Nurse 
Corps Equity Act,'' and H.R. 1982, the ``Veterans Entitlement 
to Service (VETS) Act of 2009.''
    I will not be able to address H.R. 2270, the ``Benefits for 
Qualified World War II Veterans Act of 2009,'' because VA 
received it in insufficient time to coordinate the 
administration's position and develop cost estimates. But with 
your permission, we will provide that information in writing 
for the record.
    Also, we could not in the time given develop a cost 
estimate for H.R. 1522, so we will also provide that in writing 
for the record with your permission.
    [The Administration Views for H.R. 2270 and cost estimate 
for H.R. 1522 were provided in a followup letter from Secretary 
Eric K. Shinseki, dated August 5, 2009, which appears on p. 
32.]
    H.R. 1522, the ``United States Cadet Nurse Corps Equity 
Act,'' would deem participation in the United States Cadet 
Nurse Corps during World War II to have been active duty in the 
Armed Forces for purposes of VA benefits' laws.
    Congress, in 1977, set up an administrative mechanism for 
the consideration of requests by various civilian groups to 
qualify for benefits historically provided to veterans of the 
Armed Forces proper. Congress created this process to 
discourage the use of the legislative process to make such 
determinations. This bill would effectively override that 
deliberative process.
    Title IV of Public Law 95-202, that authorized the 
Secretary of Defense to review applications to confer veteran 
status upon groups who rendered assistance to the Armed Forces 
in capacities which at the time were considered civilian 
employment or contractual service.
    In reviewing such applications, the Secretary of Defense 
considers the factors set out in the law, which include the 
extent to which a group's members were subject to military 
justice, discipline and control, the extent to which members 
were permitted to resign, their susceptibility to assignment 
for duty in a combat zone, and the extent to which they had 
reasonable expectations that participation would be considered 
active military service.
    At least twice the Secretary of Defense has accepted the 
unanimous recommendations of a Review Board that participation 
in the Cadet Nurse Corps alone is not sufficient to establish 
veteran status.
    VA accepts those recommendations and believes that the 
review process that was established by Public Law 95-202 works 
well and should not be circumvented.
    H.R. 1982, the ``Veterans Entitlement to Service Act of 
2009,'' would require VA to acknowledge the receipt of any 
claim for medical services, disability compensation, or pension 
within 60 days of receiving the claim. It would also require VA 
to acknowledge the receipt of any other communication relating 
to such services, compensation, or pension within 60 days of 
receiving the communication.
    While VA recognizes the importance of providing timely 
communications with claimants, the provisions of this bill are 
problematic and VA cannot support the bill as written.
    First, we believe the bill would impede our efforts to 
streamline and speed up claim processing by adding an 
additional and unnecessary administrative burden which would 
not materially advance the merits of the claim.
    As a general rule, VA contacts individuals who submit 
claims or other communications well within 60 days of receiving 
their claims. In addition, as a matter of claims procedure, VA 
communicates with the claimant several times during the 
processing of the claim.
    Requiring a special acknowledgment of receipt would add no 
value to the current process. In fact, it would significantly 
burden VA when the Department is trying to reduce a claim 
backlog and it would further delay claim adjudication by adding 
another step to a complex process.
    The vagueness of the bill language is also a major concern 
for VA. The term other communication could easily be construed 
to include the submission of evidence in connection with a 
claim, e-mails, and telephone calls.
    The administrative requirement to acknowledge the receipt 
of every such communication would detract from VA's core 
mission of processing veterans' claims. We cannot accurately 
estimate those administrative costs with enactment of H.R. 1982 
because of the vagueness in the language.
    Mr. Chairman, this concludes my testimony, and I would be 
pleased to answer any questions you or other Members of the 
Subcommittee may have.
    Thank you.
    [The prepared statement of Mr. Mayes appears on p. 27.]
    Mr. Hall. Thank you, Mr. Mayes.
    H.R. 1982 attempts to deal with a problem that we are 
familiar with and have spoken about before here since the 
problems with misdating, shredding and misplacing files came to 
light last fall.
    What recent steps has VA taken to ensure that documents are 
not being lost or destroyed?
    Mr. Mayes. Well, we have put in place a number of steps 
which we have testified on in previous hearings. We have 
designated management officials in our Regional Office who are 
responsible for reviewing the shred material before it is 
shredded so documents that are either redundant or are not 
relevant to any individual's claim and can properly be 
shredded, those have to be reviewed by officials within the 
Veteran Service Center or the Regional Office before they are 
destroyed.
    We also implemented really rather extraordinary procedures 
for veterans who assert that VA lost a document related to 
their claim within an 18-month period prior to us stopping all 
shredding in Regional Offices. And we did this following the 
Inspector General (IG) identifying, I believe, it was 30 some 
documents that should not have been in the shred bins.
    And we stood down. We ourselves went through everything, 
every piece of paper in every Regional Office, and we found 
slightly more than 400 documents that were mishandled.
    So what we said was if a veteran asserts that a piece of 
evidence was submitted within that year and a half prior to us 
stopping that shredding and standing down, then we would take 
their assertion on its face and go ahead and attempt to find 
the document. If we could not find it, accept a similar 
document from the claimant and adjudicate the claim based on 
that document. And we would use the date that the veteran 
asserted they submitted it as the date of claim.
    So that was extraordinary. We did that as well. So we took 
this very seriously.
    I want to put out we get some 2.6 million pieces of mail a 
year in our Regional Offices. Well, almost 900,000 claims were 
decided last year alone requiring a rating decision and the 
collection of evidence. So we do get a lot of evidence and we 
are taking every step that we can to make sure we do not 
misplace or mishandle any documents.
    Mr. Hall. I understand that. Thank you for taking those 
steps and for describing them to us and, for granting the 
veteran the benefit of the doubt in those cases when documents 
were missing or shredded during that time period.
    If a claimant has not received a VCAA notice, then what is 
VA's process for handling those claims as protocol for 
responding to the veteran?
    Mr. Mayes. Well, if a veteran submits a claim, then we have 
a requirement to send out a notice acknowledging the claim. And 
we have a requirement, and it is a statutory requirement, to 
notify the claimant what evidence that we will get and what 
evidence they are responsible for getting. That is our duty to 
notify. It is in 38 U.S.C. Sec. 5103.
    So if a veteran submitted a claim and they did not get a 
VCAA notice, then that means something did not work as it 
should have because that is a legal requirement. We take it 
very seriously. We send them out on all these claims.
    If the veteran notifies us that they sent a claim in and 
they have not heard from the VA, then we are going to do an 
exhaustive search of our records to try and find that claim or 
that communication. And if we do not find it, we will ask them 
to resubmit it and then we will send out the notice.
    Mr. Hall. Just a simple, but maybe a practical thought. A 
number of delivery services besides the U.S. Post Office offer 
a confirmation of delivery.
    Many of our veterans are living close to the edge. In fact, 
many of them are over the edge and homeless, as we discussed 
with the Secretary yesterday, among other occasions. You are 
keenly aware of this, I am sure, especially in this economic 
time.
    Would it be feasible for us, with funding through the VA, 
to reimburse veterans so that they could send their claim in 
certified return receipt requested or send it FedEx, so that 
they automatically get the confirmation of delivery. It would 
not be paperwork for you, or the employees at VA to add to 
their already prodigious load of work. What do you think about 
that commercial approach?
    Mr. Mayes. I would be reluctant to comment too much on that 
because I am not sure how that would work because I believe 
that would be a requirement that would be on the U.S. Postal 
Service.
    A lot of the evidence that comes into our Regional Office 
comes into P.O. Boxes that are uniquely set up for our Veteran 
Service Center, because we try and segregate out that evidence 
that is associated with claims so that we can more efficiently 
handle it.
    And, frankly, I just do not know what the implications of 
implementing something like that would be. It is something I 
would have to study further.
    Dick, do you have anything to add on that?
    Mr. Hipolit. Yes. That is an idea that we have not really 
considered at VA. I think it is one worth taking a look at, but 
we do not have a position on it at this time because it is a 
new idea. We have not----
    Mr. Hall. It just occurred to me that many people do this 
with their tax returns, or other important documents, that not 
just veterans, but any person or business that is sending 
sensitive or important documents or checks wants to be able to 
prove that they were received. There are services out there 
available and provided by a number of companies that could be 
used.
    I wanted to ask you also, in the paperless system that we 
are moving toward, both DAV and AFGE in their statements 
submitted for the record, agree that a paperless system would 
enhance VA's ability to process claims. I am sure you would 
agree with that basic premise. I also understand you have 
contracted with an integrator to make this happen.
    What has been accomplished since the contract was awarded 
and what are the next steps in your strategic plan?
    Mr. Mayes. Well, the contract with the integrator is to 
help us take a look at what we have currently today and then 
look at what applications are in development and help us 
identify which applications we really need to prioritize to 
achieve this vision that we have, which is truly a paperless 
claims processing system.
    I believe that they are, if they do not have, they are 
close to an overarching plan that will help us understand those 
priorities.
    One of the other things that is occurring right now as we 
speak is we have a contract with a company that is helping us 
work on our VONAPP application. It is the VA online 
application.
    So today veterans can submit an application electronically, 
but it is not as, I guess--we would like to improve the 
interface, the front-end piece, make it a little bit more easy 
to use and leverage some rules-based technology so that people 
are really walked through almost a structured interview 
process.
    And so we have a company that is helping us redesign that 
front-end piece and then there are two other things that need 
to happen with that VONAPP application.
    We need to collect the data and the data that is collected 
through the electronic application interaction needs to then be 
utilized by our claims processing system. So that is kind of 
what the EDS or the integration contractor would help us do was 
align that with our long-term vision, is that integration of 
the electronic application with the claims processing system, 
and then also the imaging system because while we are 
processing a claim in one system, we have also got an imaging 
system that allows documents to be viewed by a VA claims agent, 
for example, that might be answering the phone.
    I would envision in the future the claimant or their 
accredited representative being able to go in there and look at 
those documents as well. So it is those integration pieces that 
are so critical for our future success.
    Mr. Hall. This is all interesting and challenging for you 
and also for us in our oversight role because VA is such a 
moving target. You are upgrading your systems and moving 
forward with these things, which is good.
    But I am just curious. Last week, Judge Kasold from the 
U.S. Court of Appeals for Veterans Claims was here and he 
testified that the claims that they are seeing on appeal are in 
digital files. I asked him if he knew at what point they got 
digitized and he did not know.
    So do you know?
    Mr. Mayes. I believe the claims that are being handled at 
the Court, the Court of Appeals for Veterans Claims, are being 
digitized at the General Counsel level. And I will turn that 
over to Dick, if you want to add to that.
    Mr. Hipolit. Yes. I think that is correct that they do not 
get digitized until they have been through the VA process. They 
are not coming up through the system that way. It is when the 
case goes to court, then they go into that format.
    Mr. Mayes. Unless, unless it was a Benefits Delivery of 
Discharge claim. And those claims start at the very beginning 
of the process. We image all of the paper documents.
    I acknowledged that we start out with paper documents from 
the claimant and from the Service Department, but we image 
those and then those claims for the remainder of their life 
will be paperless in that any paper we get we will digitize.
    And if that goes to the Board of Veterans Appeals, for 
example, the Board, I am aware of at least one case where the 
Board has actually adjudicated an appeal in the paperless 
environment.
    So it is relatively new that we would have an all paperless 
claim that is working its way through the system first to the 
point where the agency of original jurisdiction makes a 
decision which would be in a Regional Office, then it gets to 
the Board and then it goes on to the court.
    So I think you will see more of these cases that are all 
digitized making their way to the court.
    Mr. Hall. Have you discussed with the integrator as part of 
the plan, electronic notification to the veteran as a claim is 
moved to another level or as a decision is made or the fact 
that it is received?
    Mr. Mayes. Yes. We have discussed that with the integrator 
to the extent that we have described what we would like the 
claims process, the electronic claims process to look like in 
the future.
    Mr. Hall. I was in Balad a couple weeks ago at the trauma 
center, at the hospital there, and they bring in wounded from 
the helicopters right in the door to the ER and immediately 
start entering information into UltraLite, which can be 
uploaded into the full-blown Ultra program.
    They have MedWeb in use so that they can have doctors 
anywhere in the world look at an MRI or a CAT scan or X-ray or 
a test result of some sort.
    Somewhere between there and the CAVC level where digitized 
files exist this world that I am sure your integrator is 
working on and you, and your IT people are working on trying 
to----
    Mr. Mayes. Connect those, yes.
    Mr. Hall [continuing]. Bring those ends together because it 
must be infuriating to you or frustrating to you as it is to 
veterans and to us on the Committee to see that there exists a 
medical record that is electronic in the field and in DoD's 
world and then on the other end at the appellate level, there 
exists an electronic record, but in between there is a paper 
record. We are all looking forward to these records meeting.
    It is kind of like the railroad being built from both ends 
of the country and then driving that last spike that joins the 
east and west.
    I want to ask you regarding, if we could just go back for a 
moment to VCAA notices, at an earlier hearing this month, we 
discussed poorly written VCAA notices. I realize that training 
is an ongoing thing. You have got new personnel being hired.
    But, what else are you doing or can you do at the moment to 
improve the quality of VCAA notices to veterans?
    Mr. Mayes. Well, there are a couple of things. One thing 
that we have done is we have modified the letter and we have 
put some of the legal requirements into an attachment to try 
and simplify the actual letter.
    But I would like to take the opportunity, Mr. Chairman, to 
acknowledge your work because I believe it was section 201 of 
the ``Veterans Benefits Improvement Act of 2008,'' directed the 
Secretary to promulgate new regulations on VA's notice 
requirements for original claims, reopened claims, and claims 
for increase.
    And so we with the Office of General Counsel's help are 
working to promulgate new regulations that would simplify the 
letter, not take away rights that afford protections, but to 
simplify the letter because we feel strongly that maybe some of 
the legal elements of the current notice serve more to confuse 
than they really do to inform veterans.
    So to that end, we would like to modify our regulations so 
that 
we can simplify the letter. And we are working on that as we spe
ak.
    Mr. Hall. Thank you, sir. Speaking for the non-lawyers 
among us, I thank you for that.
    I would ask you if you are going to, I think you said, 
submit your observations or your testimony in writing about 
Ranking Member Buyer's bill, if you could include in that what 
workload expansion you expect would be caused by having nurse 
cadets, Flying Tigers, and the other two dozen or more groups--
I do not know if you have any more information than we do about 
the numbers of people who are still alive in those categories, 
but hopefully that can be part of your written submission.
    Mr. Mayes. We will do that, Mr. Chairman, to the extent 
that we can uncover those numbers.
    [The Administration Views for H.R. 2270 and cost estimate 
for H.R. 1522 were provided in a followup letter from Secretary 
Eric K. Shinseki, dated August 5, 2009, which appears on p. 
32.]
    Mr. Hall. Well, thank you very much. I appreciate your 
coming to testify again and the ongoing work you are doing for 
our veterans.
    This hearing is now adjourned.
    Mr. Mayes. Thank you, Mr. Chairman.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]















                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. John J. Hall, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs
    Good Morning Ladies and Gentleman:
    The purpose of today's hearing will be to explore the policy 
implications of three bills, H.R. 1522, H.R. 1982 and H.R. 2270, that 
were recently referred to the House Committee on Veterans' Affairs' 
Disability Assistance and Memorial Affairs Subcommittee.
    The first bill we will discuss is the United States Cadet Nurse 
Corps Equity Act, H.R. 1522, introduced by Representative Nita Lowey. 
If enacted, it would grant veteran status to the members of United 
States Nurse Cadet Corps of WWII, making them eligible for benefits and 
services administered by the Department of Veterans Affairs. I commend 
Congresswoman Lowey for her 13-year commitment to these nurses and I 
welcome her and cadet nurse Elizabeth Yeznach whose service to the sick 
and wounded of World War II makes her a patriot we should all be proud 
to know.
    The second bill on today's agenda, the Veterans Entitlement to 
Service or VETS Act of 2009, H.R. 1982, is sponsored by Representative 
Carolyn Kilpatrick. This bill directs VA to acknowledge receipt of 
medical, disability and pension claims and other communications 
submitted by veterans within 60 days. As many of you may recall, this 
Subcommittee jointly with the Subcommittee on Oversight and 
Investigations conducted an investigatory hearing on the thousands of 
pieces of mail found unprocessed at Regional Offices during mail 
amnesty periods in 2007. We continue to exercise vigorous oversight of 
this serious problem and other claims processing irregularities that 
have plagued VA over the past 2 years. I am interested to hear how this 
bill will improve upon the Veterans Claims Assistance Act requirements 
already codified in statute and in the procedural instructions outlined 
in VA's regulations. I thank Congresswoman Kilpatrick for her activism 
in this area and look forward to her testimony.
    Finally, I am looking forward to hearing more about the Benefits 
for Qualified World War II Veterans Act of 2009, H.R. 2270, which would 
establish a compensation fund for payments to qualified World War II 
veterans with ``such sums as may be necessary.'' At a recent May mark-
up, Ranking Member Buyer brought to my attention and to the attention 
of the full Committee that there are other groups of WWII veterans who 
deserve the same benefits that H.R. 23 would provide for the forgotten 
service of the Merchant Mariners of WWII. And, despite his previous 
apprehensions over fiscal stewardship, he has followed Chairman 
Filner's lead as a veterans' advocate and introduced H.R. 2270. It is 
my pleasure to welcome here today Mr. Ed Stiles, one of the surviving 
Flying Tigers who will explain to us how Ranking Member Buyer's bill 
will help him and his generation of veterans.
    I thank the other witnesses for joining us today and look forward 
to any further insight they may provide.
                                 <F-dash>
  Prepared Statement of Hon. Doug Lamborn, Ranking Republican Member,
       Subcommittee on Disability Assistance and Memorial Affairs
    Thank you, Chairman Hall, for yielding, and thank you for the 
opportunity to discuss the bills before us this morning.
    I will start with H.R. 2270, the Benefits for Qualified World War 
II Veterans Act of 2009, a bill introduced by Ranking Member Buyer to 
provide a monthly payment to all World War II groups that were provided 
veteran status under the GI Bill Improvement Act of 1977.
    The impetus for this bill is H.R. 23, which was recently passed by 
the full Committee, to provide the monthly payment to WWII Merchant 
Mariners, but did not include the aforementioned veterans groups.
    Like Mr. Buyer, I was opposed to H.R. 23 because it provides a non 
service-connected pension regardless of income, something we do not do 
for other veterans except Medal of Honor recipients.
    But because it was approved, I believe that all groups with veteran 
status under the GI Bill Improvement Act of 1977 should be entitled to 
the same benefits.
    One such group consists of members of the American Volunteer Group 
known as the ``Flying Tigers.''
    This was a group of pilots and ground crew who helped defend Burma 
and China before and after the attack on Pearl Harbor.
    The Flying Tigers are credited with destroying an impressive 297 
enemy aircraft and had one of the best kill ratios of any air group in 
the pacific theater.
    There were approximately 80 pilots that flew for the Flying Tigers, 
of which 21 died in service.
    An amazing 19 of them had five or more air to air victories, which 
makes them aces.
    Of the over 300 original members of the Flying Tigers, only 18 of 
them are still with us today.
    And we are honored to have with us this morning, Mr. Ed Stiles 
Senior, who served with this courageous group of aviators.
    Thank you for being here Mr. Stiles, we look forward to your 
testimony.
    Another bill we are discussing today, H.R. 1522, also pertains to a 
group of individuals who served our country during WWII.
    This noble group, the United States Cadet Nurse Corps was 
established by Congress in 1943 to train nurses for both governmental 
and civilian agencies.
    While there is no doubt the Cadet Nurse Corps filled an essential 
war-time need, I do not believe Congress should bypass the process it 
established, via the GI Bill Improvement Act of 1977, to have the 
Secretary of Defense determine--based on criteria established by 
Congress--if the qualified service of a particular group constitutes 
active military service.
    Congress did so, so that objective and consistent consideration was 
applied to any group seeking status as a veteran, and I don't believe 
we should abandon that process.
    Despite these concerns, I look forward to hearing the testimony of 
Elizabeth Yeznach who served with this dedicated group of patriots.
    We are privileged to have you with us today, Ms. Yeznach, and I 
thank you for being here.
    Finally, we will discuss H.R. 1982 which would require VA to 
acknowledge the receipt of any claim or other communication within 60 
days.
    Although this is a well-intended measure, I am concerned that 
requiring VA to acknowledge every item of correspondence would result 
in an enormous volume of paperwork that would detract from claims 
development and adjudication.
    While this unintended consequence should be avoided, the need for 
greater accountability by VA is a point well taken, and I believe it is 
the intent of this bill.
    I would also point out that what H.R. 1982 strives to accomplish 
will be much more feasible when the VA utilizes a modern IT system and 
information exchange is conducted electronically.
    Mr. Chairman, we made a lot of progress in the last Congress toward 
modernizing and improving the VA claims processing system, and it is my 
hope that the reforms we put in place will help provide the assurances 
this bill intends to offer.
    Thank you, and I yield back.

                                 <F-dash>
               Prepared Statement of Hon. Nita M. Lowey,
        a Representative in Congress from the State of New York
    I thank the Committee for holding the first hearing on the United 
States Nurse Corps Equity Act today. I authored this legislation in 
1996 to recognize and honor the service of women who served with 
distinction in the Cadet Nurse Corps.
    Sixty-six years after the end of World War II recognition parallel 
to their great sacrifice and commitment has not been given to Cadet 
Nurses. At a time when our country has been called to serve by our new 
Administration, it is fitting to adequately express our gratitude to 
those who have served our country during one of our most challenging 
eras.
    With limited positions in the military for women, many young women 
joined the U.S. Cadet Nurse Corps during World War II to fill the 
domestic nursing shortage in our country. H.R. 1522 will ensure that 
the many women who served our country the best way they could, receive 
the acknowledgement of veteran status that they deserve.
    Other women's groups who served in WWII military services have 
rightfully been granted veteran status and benefits. Despite their 
historic and patriotic contributions, the women of the U.S. Cadet 
Nurses Corps have been forgotten.
    The legacy of the Cadet Nurse Corps is manifold, felt by all 
Americans but understood by few. Many Cadet Nurses were deployed to 
Army, Navy, Public Health facilities, and Indian health agencies during 
their senior cadet service. As a result, World War II military veterans 
came home to a strong health care system and were provided critical 
care by Cadet Nurses. In order to properly recognize their patriotism, 
the Cadets should be designated as veterans.
    Three dedicated patriots who served in the Cadet Nurse Corps are 
here today. My constituent, Anne Kakos from Yonkers, New York served as 
a cadet nurse from 1943-1946. Caroline Bradford of Mechanicsville, 
Maryland served as a Cadet Nurse from 1943-1946 and both their stories 
have been submitted for the record. I would like them to stand up and 
be recognized. I am also honored to introduce Elizabeth Yeznach, from 
Galesferry, Connecticut, who served as a Cadet Nurse in Hartford, 
Connecticut from 1943-1946 and will be testifying on this important 
legislation today.
    And now, I am pleased to introduce Elizabeth Yeznach who will share 
her experience as a Cadet Nurse and the importance of this legislation.

                                 <F-dash>
        Prepared Statement of Elizabeth Yeznach, Galesferry, CT,
          as Presented by Anne R. (Mandzak) Kakos, Yonkers, NY
    My name is Elizabeth Yeznach. I am here on behalf of the 180,000 
women of all races and ethnicities who served our country during WWII 
as members of the United States Cadet Nurse Corps [USCNC]. I, myself, 
served as a Cadet Nurse from 1943 to 1946 at St. Francis Hospital in 
Hartford, Connecticut.
    First, I would like to extend a heartfelt thank you to 
Congresswoman Nita Lowey, for consistently introducing the United 
States Cadet Nurse Equity Act through the years. You kept our hopes 
alive that someday the Cadet Nurse Corps would be recognized as 
veterans. This hearing brings us one step closer and I am grateful to 
the Subcommittee on Disability Assistance and Memorial Affairs for 
holding this hearing. I would also like to thank all the other 
Congresspersons who cosponsored this legislation year after year 
including Chairman of the Committee on Veterans Affairs Bob Filner.
    During World War II, our Nation faced a desperate shortage of 
nurses on the home front and a decline in nursing school enrollment. 
Nurses who enrolled in the military left a dearth of nurses in civilian 
facilities and as the war continued, the shortage of nurses became 
acute both at home and overseas. The Federal government established the 
U.S. Cadet Nurse Corps in 1943 to recruit young women to become nurses, 
180,000 of whom provided 80% of the nursing care in our country during 
the war.
    The United States Cadet Nurse Corps offered an innovative solution 
to the pressing shortage of nurses during World War II. Without us, our 
domestic health care system could have collapsed and resulted in a sick 
and demoralized nation. We were deployed to Army, Navy, Public Health 
Facilities, and Indian health agencies. We abided by all the rules that 
were applicable to military such as wearing uniforms and were required 
to pledge 36 months of service. Yet, our contributions and commitment 
during a tense time in our country's history remains virtually unknown.
    We, the Cadet Nurses, worked tirelessly to care for sick civilians 
and injured troops. We were exposed to infectious diseases and death; 
worked 12-hour shifts, 6\1/2\ days a week; and cared for as many as 50 
patients simultaneously.
    As a Cadet Nurse and student at that time, I remember the stress of 
providing emotional and physical support to multiple patients and their 
families who faced major trauma in tragic events. For example, the 
Hartford Barnum and Bailey Circus Fire of 1944, cadet nurses were 
charged with providing complex care and attention to the many injured 
while they endured painful and prolonged treatments. During my time as 
a Cadet Nurse, I gained strong clinical experience and skills in 
providing complete care--both physical and emotional--in challenging 
settings.
    Other women in WWII military services--the Women's Army Corps 
[WACS], the Women Accepted for Volunteer Emergency Service [WAVES], and 
the Women Air Force Service Pilots [WASP]--have rightfully been granted 
veteran status and benefits. Despite our historic and patriotic 
contributions, we, the women of the U.S. Cadet Nurses Corps are 
consistently dismissed and forgotten. We are not seeking special 
recognition, just equal recognition!
    Many former Cadet Nurses have already passed away and 
unfortunately, I don't know how many remain. What I do know is that we 
are passing on at the same rate as those of that generation, with many 
former Cadet Nurses now more than 80 years old.
    Passing this legislation is more important now than ever before as 
66 years have passed since the inception of the U.S. Cadet Nurse Corps 
was founded and our service remains unrecognized.
    We came forward to help our country through a difficult time and 
are proud to know that as part of a uniformed service, we contributed 
to America's victory in World War II. Therefore, after all this 
commitment and contribution, if we are not veterans, can you tell us 
what we are?
    Thank you.
                               __________
                Statement from Cadet Nurse Corps Members
                               EXHIBIT 1
                                                 Mechanicsville, MD
                                                       May 18, 2009

    What ever happened to the Cadet Nurses? We were there--a part of 
the Greatest Generation. We enlisted by the thousands. We served our 
country in civilian hospitals, Army Hospitals, Navy Hospitals, Indian 
Reservations, Public Health facilities, and Visiting Nurse Societies--
often working 10 to 12 hour shifts. We lived in crowded dormitories. We 
endured curfews and many ``military-like'' rules. We wore uniforms. We 
could not marry ``for the duration.'' On weekdays, we had to be in our 
rooms at 7:00 p.m.--study from 7:30 to 9:30--and lights out at 10:00 
p.m. A ``House Mother'' checked on us between 7:00 and 7:30 and locked 
the door so no one could enter without her knowledge. After 10:00 p.m. 
she walked the halls to be sure all lights were out. On weekends, we 
had one midnight pass and one 10:00 p.m. pass. Once a month we could 
have an overnight pass with parental permission. We loved it! We were 
proud! Proud to be Cadet Nurses!
    The United States Cadet Nurse Corps was a uniformed service created 
by Congress during World War II to supply nurses for the military, 
Federal Government, and essential civilian hospitals. It was 
administered by the U.S. Public Health Service. We were sworn in during 
a ceremony conducted simultaneously throughout the country in July, 
1943. We were issued uniforms and were given I.D. cards with a serial 
number. We were under Commissioned Officers of the USPHS, Surgeon 
General Thomas Parran, and Director of Nursing Education, Lucille 
Petry. At the close of the war, President Harry S. Truman issued an 
Executive Order declaring that service in the ``Commissioned Corps of 
the Public Health Service'' was to be considered as military service 
during World War II--thus giving them veterans status. For unknown 
reasons Cadet Nurses were not given discharge papers. We were ignored 
by our government.
    We were again ignored by esteemed author Tom Brokaw. Not one 
sentence in his book, ``The Greatest Generation,'' recognized our 
service. Many members of the Disabled American Veterans remember us. We 
dressed their wounds. We exercised their arms and legs while they were 
in body casts. We medicated them. We listened to them. We laughed with 
them.
    Cadet Nurses wore clinical work uniforms with the Cadet Nurse 
insignia and wore dress uniforms off duty. The buttons and insignia on 
the dress uniforms were the same as those of the USPHS Commissioned 
Officers uniforms. The insignia and dress uniforms were not to be worn 
by any unauthorized person under the same Federal penalties provided by 
the Act June 3, 1916, for the unlawful wearing of uniforms of the U.S. 
Army, Navy, or Marine Corps (Public Law 248, March 4, 1944).
    During my time in the Cadet Nurse Corps (July 1943-September 1945), 
I worked 3 months at Saint Elizabeth's Hospital, a Federal hospital, 3 
months at Children's Hospital in Philadelphia, and 6 months at Newton 
D. Baker General Army Hospital. The rest of the time I worked at 
Garfield Memorial Hospital in Washington, D.C. This was certainly 
essential service. It had a defining influence on the rest of my life.
    I ask that you support H.R. 1522.

            Respectively submitted,

                                     Caroline Bradburn Bradford, RN
                                                        Cadet Nurse
                               __________
                               EXHIBIT 2
                                                  Yonkers, New York
                                                       May 21, 2009

    As an enlisted member of the World War II United States Cadet Nurse 
Corps, I am submitting a history of my service on the home front as a 
``trainee nurse'' for the military during this declared war that needed 
nurses.
    My trainee period was from September 13, 1943 to September 12, 
1946. The last 6 months were spent in a Civilian Hospital as per my 
pledge to serve our Nation until the end of Hostilities. I served in 
the Emergency Room and the Physical Therapy Units. As a ``trainee,'' I 
performed Nursing duties under the supervision of a registered nurse on 
the day shift.
    There was one registered nurse for the whole Hospital to supervise 
the night and evening shifts.
    Care included bedside nursing and well as the bedside units. 
Sometimes, as many as thirty patients were in one unit. Cadet nurses 
were alone on the units. Working in the Delivery Room, Maternity and 
Nursery Units were included. These were wives of the Military away 
serving this Nation at War. As a ``trainee nurse,'' exposure to disease 
and even injury was a challenge. This was the ``Polio Era.'' Many cadet 
nurses were given assignments for the last 6 months in the Military, 
Veterans, and Indian Reservations.
    This Legislation is important to me and to my Cadet Nurse Corps 
colleagues because we would be granted official recognition as 
``benefited United States Veterans'' serving this great Nation of ours 
during the Greatest World War II of the Twentieth Century.

            Respectfully submitted,

                                            Anne R. (Mandzak) Kakos
                               __________

                               EXHIBIT 3
    I am writing to you in regard to U.S. Cadet Nurse Corps bill H.R. 
1522. In a military service I was inducted into the U.S. Cadet Nurse 
Corps where I served for two and one half years. This Corps was 
established by Congress to help relieve the serious shortage of nurses. 
I worked very hard during this time serving my country as a Cadet 
Nurse. This hard work and devotion has been very beneficial to me in 
later years of nursing. I am asking that your Committee give full 
support in obtaining veteran's status for me and my colleagues as 
former members of the U.S. Cadet Nurse Corps.

            Thank you.

                                                       Helen Barber
                               __________
                                                         Quincy, MA

To Whom It May Concern:
    Although I cannot be there at the hearing on May 21, 2009, please 
enter my name and address as a supporter of H.R. 1522. It's about time 
this uniformed regiment of young women receive the recognition owed to 
them for over 60 years. American capability of caring for our wounded 
men overseas was possible because the U.S. Cadets were caring for the 
citizens on the home front. When our warriors returned, our Nation's 
health care system was intact and the veterans continued to have access 
to the best nursing care available.
    All United States Nurses in one of the Uniformed Services of our 
country serve as non-combatants. Whether they serve overseas or on the 
home front, they are Veterans!

            Thank you,

                                    Shirley Anne Caswell Harrow, RN
                               __________
                                                  Oneonta, New York
                                                       May 17, 2009

    Just another octogenarian giving her message to our legislators 
about her ``stint'' in the United States Cadet Nurse Corps Service as 
an enlisted and uniformed ``Trainee'' for the Military and the home 
front as per the ``pledge'' to serve one's Nation until the end of all 
hostilities of World War II. I am a World War II United States Cadet 
Nurse Corps member, enlisted and served from February 1944 to February 
1947 at the Lenox Hill Hospital in New York City. Toward the last 
months of my ``trainee'' period, I was sent across the United States, 
by train, to Tacoma Indian Hospital. Patients were suffering from 
``tuberculosis.'' Patients were from the Indian reservation. 
Congresswoman Nita M. Lowey's Bill H.R. 1522 is before you today (May 
21, 2009). Please review this and let us be ``officially recognized as 
these United States Veterans'' with a deliverance of the ``discharge 
papers from the Department of Defense.'' It is close to 66 years that 
Public Law 74 was signed into law by President Franklin D. Roosevelt 
granting the teenage women the right to enlist and serve this great 
Nation of ours. I am proud to be an American with rights to choose to 
enlist and to serve this great Nation.
    Thank you for reviewing our bill, H.R. 1522.

            Respectfully submitted by e-mail,

                                             Nancy Wilson Danielson

                                 <F-dash>
           Prepared Statement of Hon. Carolyn C. Kilpatrick,
        a Representative in Congress from the State of Michigan
    Subcommittee Chairman John J. Hall, Ranking Minority Member Doug 
Lamborn, and esteemed Members of the Veterans Subcommittee on 
Disability and Memorial Affairs, giving Honor and Glory to God, I thank 
you for this unique opportunity and the distinct honor of allowing me 
to testify and to have a hearing on my legislation, H.R. 1982, the 
``Veterans Entitlement to Service (VETS) Act of 2009.'' I know that the 
Subcommittee has many pieces of legislation to consider, and this 
hearing clearly illustrates Full Committee Chairman Bob Filner and 
Ranking Minority Member Steve Buyer, as well as the Subcommittee's 
earnest commitment to issues that affect our veterans.
    Over the last year, the 13th Congressional District of Michigan, 
which consists of Detroit and seven cities, has received numerous calls 
and letters of complaints from veterans expressing frustration over 
getting no response from the Department of Veterans Affairs (VA) after 
their diligent filing of various claims. These claims were often filed 
for four to 6 months without a response from the Department of Veterans 
Affairs. As the Subcommittee knows, there have also been many media 
reports, which I have attached to my testimony, about thousands of 
unreported claims.
    For example, in an article of the October 16, 2008 edition of the 
Army Times, it was reported that thousands of pieces of unprocessed 
mail had been found in shredder bins or squirreled away in the desk 
drawers of office staff. An audit determined that there were 16,000 
pieces of unprocessed mail in Detroit and over 717 documents showed up 
in New York during amnesty periods when workers would not be penalized.
    Imagine the hours, the days and even months--along with the 
frustration consumed by the veteran, the spouse or another family 
member in the effort to track down the right person in the right place 
in the VA--through an 800 number--to determine if the claim had been 
even received.
    As we all know, this situation didn't just suddenly happen 
overnight. What is most troubling is the fact that it still persists 
and exists. Our colleague and Chairman of the Veterans Oversight 
Subcommittee and cosponsor of my legislation, Congressman Harry 
Mitchell, has long had concerns about this matter and with the help of 
the Members of this Committee illuminate the challenges faced by our 
veterans by bringing this problem to the forefront.
    The Veterans Entitlement to Service Act is simple. It would require 
the VA to respond within 60 days to the veteran with an acknowledgement 
that the veteran's claim had been received. Nothing more, but our 
veterans deserve nothing less. The legislation requires no promise of 
payment or determination of benefits. It is simply a way to let the 
veteran and his or her family knows that the claim has been received. 
This notification, this acknowledgement of the claim, will prevent 
stress and build trust in the very first stages of the process. It will 
provide the veteran with a sense of security instead of a feeling of 
dread, wondering if the claim was received, much less shredded or 
squirreled away.
    While this bill will address some of the challenges facing our 
veterans in Detroit, Michigan or New York, it is a bill that will truly 
address the needs of all veterans, wherever he or she resides. When I 
see quotes in the paper from a representative of the Gold Star Wives of 
America--the non-profit organization made up of military widows/
widowers whose spouse died while on active duty or from service-
connected disabilities--stating that there are problems with survivors 
trying to receive VA benefits, it underscores the importance of this 
bill.
    This Congress--this Committee--has been the driving force to 
provide the necessary resources to enable the VA to electronically 
store and transmit medical records. Last year, Congress passed the bill 
that eventually became Public Law 100-389, the ``Veterans' Benefits 
Improvement Act of 2008.'' After the revelations of the last 2 years, 
this law is bold and long overdue. First and foremost, the bill 
mandates a study of the feasibility and advisability of providing 
expeditious treatment of compensation or pension claims to ensure that 
such claims are adjudicated not later than 90 days after the date on 
which such claim is submitted.
    Further, presently under the same law, there is a study underway to 
determine the amount of time it takes to process claims. However, how 
does one make an accurate assessment of that performance or timeline 
when an estimated 18,000 claims, according to published reports, have 
not been included?
    The appointment of retired U.S. Army General Eric Shinseki as 
Secretary of Veterans Affairs by President Barack Obama is another way 
of ensuring the resources this Committee approves are used correctly. 
General Shinseki's reorganization of the Office of the Secretary is 
committed to improving accountability and service to veterans. As a 
West Point graduate, highly decorated combat veteran, and four star 
general, General Shinseki, along with President Obama, have brought a 
transformational vision that will focus on new technologies and new 
commitments to today's veterans. The Department of Veterans Affairs 
will spend $200 million of Stimulus Recovery Act Funds to hire and 
train up to 1,500 claims processors and pursue needed information 
technology systems initiatives that will improve service delivery to 
our veterans. The VETS Act can add to that technology the ability to 
forward a letter to the veteran as soon as the claim is received and 
posted. We already have this acknowledgement for our Social Security 
recipients; it is time that we do the same for our veterans who were 
either drafted, or volunteered, to sacrifice a comfortable life for 
themselves and their families in defense of the Constitution of the 
United States.
    In closing, the sole purpose of this bill is--at the very minimum--
a simple acknowledgement of the receipt of a claim. The bill does NOT 
take a position on the qualifications of any claim in any manner. I am 
a liberal, and I am a proud Progressive. Regardless of your position on 
any issue in any war, liberals and conservatives recognize that we 
should--we must--take care of those individuals, and their families, 
who consist of less than 2 percent of our population, who protect 98 
percent of us each and every day, all over the globe. My legislation is 
not just an acknowledgement of the receipt of a claim; it is a matter 
of simple respect and dignity to our veterans.
    I know that while the Recovery Act will hire and train up to 1,500 
VA claims processors, there is a hiring freeze at the Department of 
Veterans Affairs. It is my hope and desire that this audit and 
assessment is quickly concluded so that the business of the people can 
continue. I understand that my bill will add another step to Veterans' 
claims and may become another burden on an already understaffed agency. 
Hopefully, the hiring of additional claims processors will help 
alleviate this challenge. Finally, I am sure that there are some 
Members of Congress, organizations, and groups who will assert that my 
bill does not go far enough, and that it should be expanded to include 
the notification of any movement of the claim along the process. As the 
VA moves more and more into digitally recording and electronically 
providing various records, this task should be facilitated soon.
    Yet, we are not at the date when records can be electronically 
transferred. My legislation is a short-term solution until electronic 
filing is a reality for all of our veterans.
    Some might say that there is a tremendous potential cost in sending 
up to 300,000 postcards or letters that would certify whether or not a 
claim is received. I counter that those individual veterans, men and 
women, know that the potential price of being drafted or volunteering 
to fight for our country could be their very lives. What is, however, 
the cost of informing our veterans that his or her claim has been 
received? I would imagine if I am a veteran and I am wondering if my 
country or my military is going to keep its end of the bargain? 
Priceless.
    I am an Appropriator, and have been an elected legislator for more 
than three decades. While I know the needs of the 13th Congressional 
District of Michigan, I make no assumption on the wisdom and guidance 
of the Members of this Committee. I offer this legislation to be 
amended by the august and esteemed Members who make it their duty to 
care for our veterans and their families. I thank the Committee for 
this hearing and consideration of my bill, H.R. 1982, the VETS Act of 
2009, and I look toward its speedy consideration and adoption into law.
    I thank the Chair and the Ranking Minority Member for their time.

                                 <F-dash>
  Prepared Statement of Major Ed Stiles, Sr., USAFR (Ret.) Poland, OH,
         on behalf of American Volunteer Group (Flying Tigers)
    Chairman Hall, Ranking Member Lamborn, and Members of the 
Subcommittee:
    My name is Ed Stiles, Sr., and I am pleased to have the opportunity 
to appear before you today on behalf of my comrades, both living and 
deceased, of American Volunteer Group (AVG), also know as the Flying 
Tigers. I am here today to express the AVG's support for H.R. 2270, the 
``Benefits for Qualified World War II Veterans Act of 2009.''
    H.R. 2270 would provide a $1,000 a month payment to qualified 
flying tigers and members of the other 28 World War II civilian groups 
that were given veterans status under the process set up by the GI Bill 
Improvement Act of 1977. While I am not eligible for this payment I am 
here to represent the other flying tigers who are eligible.
    Between June 27, 1941, and June 27, 1942, I had the distinct 
pleasure of serving as a crew chief for the AVG. We served the Chinese 
government in attacks against Japan before and after Pearl Harbor. Our 
pilots eliminated 297 enemy aircraft of which 229 were done in the air. 
There were approximately 80 pilots that flew for us, 19 of which were 
aces. Twenty-two of these brave pilots died in service.
    In my role as a Crew Chief, I was in charge with the maintenance of 
the P40's. To service each aircraft so that our pilot's had a reliable 
aircraft with which to locate and destroy Japanese targets, which at 
that time were decimating the Burma Road, and supply routes to the 
China Mainland.
    My first contact with the AVG was while I was in the Army Air Corp 
stationed at Mitchell Field in Long Island, New York. A representative 
came to our base caring a signed document from President Roosevelt 
granting those interested in going to China, under the command of the 
superior air tactician, retired General Claire Chennault, to fight back 
the aggression of the Japanese Air Corp, with a $350.00 monthly salary 
and an honorable immediate discharge from my present position.
    The experience that I had during my contracted time with the AVG 
Flying Tigers could never be expressed fully today in my allotted time. 
The friendships and military bonds that were created have sustained me 
for the past 68 years. Please understand that the mission that the AVG 
members undertook ultimately slowed the Japanese aggression in the 
Pacific Theater and also revitalized the morale of the American people.
    I felt proud and rewarded along with my fellow AVG members the day 
we received the Bronze Star Medal on December 8, 1996.
    We served our country with honor and gallantry and many of our 
members did not receive the World War II GI Bill. However I did not 
come here today to seek sympathy but to seek equity.
    It is not my place to say that members of the AVG are more or less 
deserving of as members of the Merchant Marine but, I believe that if 
Congress is going to provide service pensions for the Merchant Mariners 
that they should provide this pension to the living members of all of 
the 28 groups including my comrades in the AVG.
    Mr. Chairman, H.R. 2270 provides this equity and has my full 
support. This concludes my statement and I appreciate being given the 
opportunity to testify today and I am available to answer any questions 
you or the other Members of the Subcommittee may have. Thank you.

                                 <F-dash>
                Prepared Statement of Bradley G. Mayes,
              Director, Compensation and Pension Service,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to provide the views of the Department of Veterans Affairs 
(VA) on H.R. 1522, the ``United States Cadet Nurse Corps Equity Act,'' 
and H.R. 1982, the ``Veterans Entitlement to Service (VETS) Act of 
2009.'' I cannot address today H.R. 2270, the ``Benefits for Qualified 
World War II Veterans Act of 2009,'' because VA received it in 
insufficient time to coordinate the administration's position and 
develop cost estimates, but, with your permission, we will provide that 
information in writing for the record. Also, we could not in the time 
given develop a cost estimate for H.R. 1522, so we will also provide 
that in writing for the record.
                               H.R. 1522
    H.R. 1522, the ``United States Cadet Nurse Corps Equity Act,'' 
would deem participation in the United States Cadet Nurse Corps during 
World War II to have been active duty in the Armed Forces for purposes 
of VA benefits laws. It would prohibit the payment of benefits 
resulting from its enactment for any period before the date of 
enactment.
    Congress in 1977 set up an administrative mechanism for the 
consideration of requests by various civilian groups to qualify for 
benefits historically provided to veterans of the Armed Forces proper. 
Congress created this process to discourage the use of the legislative 
process to make such determinations. This bill would override that 
deliberative process.
    Title IV of Public Law 95-202 authorizes the Secretary of Defense 
to review applications to confer Veteran status upon groups who 
rendered assistance to the Armed Forces in capacities which at the time 
were considered civilian employment or contractual service. In 
reviewing such applications, the Secretary of Defense considers the 
factors set out in title IV of Public Law 95-202, which include the 
extent to which a group's members were subject to military justice, 
discipline, and control; the extent to which members were permitted to 
resign; their susceptibility to assignment for duty in a combat zone; 
and the extent to which they had reasonable expectations that 
participation would be considered active military service.
    VA does not question that the Cadet Nurse Corps provided valuable 
contributions in the nursing field. However, participation in the Corps 
alone does not meet the criteria specific to active military service 
and subsequent Veteran status. At least twice the Secretary of Defense 
has accepted the unanimous recommendations of a review board that 
participation in the Cadet Nurse Corps alone is not appropriate for 
this status. The review board found that Congress established the Cadet 
Nurse Corps primarily to increase the supply of nurses for civilian 
hospitals in wartime. Participants were neither employees of the 
Federal Government nor legally obligated to future government service. 
They received Federal scholarships while attending nursing schools that 
received Federal grants-in-aid, and they were allowed to resign at any 
time. Some were allowed to train in military and other Federal 
hospitals during the last 6 months of the curriculum but still were not 
obligated to Federal service. However, certain members of the Cadet 
Nurse Corps performed additional service by choosing to enlist upon 
graduation. Those nurses who served honorably in this capacity are 
already considered Veterans for VA-benefit purposes.
    VA believes that the review process established by Public Law 95-
202 works well and should not be circumvented. Moreover, this process 
led to appropriate analysis and determinations by the Department of 
Defense. VA did not have sufficient time to prepare benefit cost 
estimates for this provision.
                               H.R. 1982
    H.R. 1982, the ``Veterans Entitlement to Service (VETS) Act of 
2009,'' would require VA to acknowledge the receipt of any claim for 
medical services, disability compensation, or pension within 60 days of 
receiving the claim. It would also require VA to acknowledge the 
receipt of any other communication relating to such services, 
compensation, or pension within 60 days of receiving the communication.
    While VA recognizes the importance of providing timely 
communications with claimants, the provisions of this bill are 
problematic, and VA cannot support this bill as written. First, we 
believe the bill would be detrimental to VA efforts to streamline and 
speed up claim processing by adding additional paperwork and 
administrative workload which would not materially advance the merits 
of a claim. As a general rule, VA contacts individuals who submit 
claims or other communications well within 60 days of receiving their 
claims or communications. In addition, as a matter of claims procedure, 
VA communicates with the claimant several times during the processing 
of a claim. Requiring a special acknowledgment of receipt would add no 
value to the current process. In fact, it would significantly burden VA 
when the Department is trying to reduce a claim backlog and would 
further delay claim adjudication by adding another step to an already 
complex process.
    The vagueness of the bill language is also a major concern for VA. 
The term ``other communication'' could easily be construed to include 
the submission of evidence in connection with a claim, e-mails, and 
telephone calls. The administrative requirement to acknowledge the 
receipt of every such communication would be a tremendous workload that 
would detract from VA's core mission of processing claims.
    We cannot accurately estimate the administrative costs enactment of 
H.R. 1982 would entail because of its vague language.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or the other Members of the Subcommittee may 
have.

                                 <F-dash>
   Statement of American Federation of Government Employees, AFL-CIO
    Chairman Hall and Members of the Subcommittee:
    Thank you for the opportunity to present the views of the American 
Federation of Government Employees (AFGE) on H.R. 1982, the ``Veterans 
Entitlement to Service (VETS) Act of 2009.''
    AFGE does not support this legislation because it will adversely 
impact veterans by adding an unnecessary reporting requirement to the 
claims process that will cause further delays, which in turn, will 
significantly increase the current backlog. The proposed notice 
requirement will require a response to every piece of correspondence or 
evidence received by VBA, requiring the issuance of millions of 
additional notices every year.
    In addition, it will require Rating Veteran Service Representatives 
to review each received correspondence to ensure that the notice 
requirement has been met prior to rendering a decision.
    The Veterans Benefits Administration (VBA) is already required to 
provide a very effective notice to veterans in the form of a detailed 
list of the evidence included in a Rating Decision (RD) or other 
adjudicative document. Upon receipt of an RD or other adjudicative 
document, the veteran is able to determine whether all of the evidence 
submitted in support of his or her claim has been received and 
considered, and how best to proceed based upon the evidence listed and 
the claims decisions made up to that point.
    Absent an increase in staff to comply with this new requirement, 
this requirement would dramatically increase the amount of time that 
veterans wait to receive a decision on their claims. If, on the other 
hand, Congress improved the current work credit system, as required by 
Section 103 of the Disability Claims Modernization Act enacted, and 
gave employees adequate credit for providing the new notices, this bill 
would have a much smaller impact on the claims process. However, we 
question whether the additional work hours needed to comply with this 
requirement are warranted in view of the other notice requirements 
already in law and the many other competing needs for additional VBA 
employees.
    Finally, if and when VBA institutes a paperless claims process, the 
need for this notice requirement will become moot, assuming that 
veterans will be able to access the contents of their claims files 
electronically and determine if all evidence and correspondence was 
received.
    Again, thank you for the opportunity to present AFGE's view on this 
matter.

                                 <F-dash>
                     Statement of Hon. Steve Buyer,
         a Representative in Congress from the State of Indiana
    Thank you, Mr. Chairman.
    H.R. 23, as amended, which was recently passed by the House, would 
provide a $1,000 monthly payment to WWII Merchant Mariners, but the 
bill did not include many other similar WWII veterans groups.
    As a result, I introduced H.R. 2270, the ``Benefits for Qualified 
World War II Veterans Act of 2009,'' to provide a monthly payment for 
all World War II groups that were provided veteran status under the GI 
Bill Improvement Act of 1977.
    I opposed H.R. 23, as amended, because it provides an unprecedented 
non service-connected pension to WWII Merchant Mariners regardless of 
income, which is something we do not do for any other veterans except 
Medal of Honor recipients.
    But because it was approved, I believe that the other 28 groups 
with veteran status under the GI Bill Improvement Act of 1977 should be 
entitled to the same benefits.
    One group of veterans that would benefit from my amendment is the 
American Volunteer Group known as the Flying Tigers. This was a group 
of American pilots and ground crew who worked for the Chinese 
government in defense of Rangoon and parts of China before and after 
the attack on Pearl Harbor.
    The Flying Tigers are credited for destroying an impressive 297 
enemy aircraft and had one of the best kill ratios of any air group in 
the pacific theater. There were approximately 80 pilots that flew for 
the Flying Tigers, of which 21 died in service. An amazing 19 of them 
were credited with five or more air to air victories which makes them 
aces. Of the over 300 original members of the flying tigers only 18 of 
them are still with us today.
    In his praise of the Flying Tigers President Roosevelt stated, 
``The outstanding gallantry and conspicuous daring that the American 
Volunteer Group combined with their unbelievable efficiency is a source 
of tremendous pride throughout the whole of America. The fact that they 
have labored under the shortages and difficulties is keenly 
appreciated. . . .''
    Another group I would like to highlight is the Women Air Force 
Service Pilots (WASPS). WASPS were female pilots who flew every type of 
mission that any Army Air Force male pilot flew during World War II, 
except combat. They freed up male pilots by flying planes from 
factories to airfields and overall flew 60 million miles in every type 
aircraft in the Army Air Force arsenal--from the fastest fighters to 
the heaviest bombers.
    Mr. Chairman, I submit to you that if we are going to help the 
Merchant Mariners than we must also help groups like the Flying Tigers 
and the WASPS and the members of the other groups.
    To not do so would be unfair, and I encourage Members of both 
parties to do what is right and support H.R. 2270. I yield back.

                                 <F-dash>
                      Statement of John L. Wilson,
  Associate National Legislative Director, Disabled American Veterans
    Mr. Chairman and Members of the Subcommittee:
    On behalf of the 1.2 million members of the Disabled American 
Veterans (DAV), I am honored to present this testimony to address 
various bills before the Subcommittee today. In accordance with our 
congressional charter, the DAV's mission is to ``advance the interests, 
and work for the betterment, of all wounded, injured, and disabled 
American veterans.'' We are therefore pleased to support various 
measures insofar as they fall within that scope.
                               H.R. 1982
    The Veterans Entitlement to Service (VETS) Act of 2009, introduced 
by Representative Kilpatrick on April 21, 2009, directs the Secretary 
of Veterans Affairs (Secretary) to acknowledge the receipt of any claim 
for medical services, disability compensation, or pension under the 
laws administered by the Secretary for Veterans Affairs, or other 
communication relating to such services, compensation, or pension, 
submitted to the Secretary by a veteran within 60 days of receiving the 
claim or other communication.
    Although this legislation is well-intentioned, it is DAV's view 
that the VA already has practices and policies in place to communicate 
with veterans, their dependents and survivors. The VA sends letters to 
veterans, their dependents and survivors in response to compensation 
claims. Letters may be sent in reply to veterans, their dependents and 
survivors inquiries with VA Contact Centers. Letters are sent to 
veterans for each Notification of Disagreement that is received. 
Letters of transmittal are sent with each Statement of the Case and 
Supplemental Statement of the Case when new evidence is submitted.
    In fiscal year 2008, the VA received in excess of 9 million pieces 
of correspondence for all claims and other communications. It is our 
perspective that this bill, if enacted into law, would place an undue 
and unattainable goal on the VA and will greatly delay claims 
decisions. The DAV would rather continue the focus, in concert with the 
Department of Veterans Affairs (VA) and the Veterans' Affairs 
Committees of the House and Senate, on ways to streamline the claims 
process.
                               H.R. 1522
    The United States Cadet Nurse Corps Equity Act, introduced by 
Representative Lowey on March 16, 2009, seeks to provide that service 
of the members of the organization known as the United States Cadet 
Nurse Corps during World War II constituted active military service for 
purposes of laws administered by the Secretary of Veterans Affairs.
    The DAV has no resolution on this bill. It also falls outside the 
scope of our organization's mission. However, we have no objection to 
its favorable consideration.
                               H.R. 2270
    Benefits for Qualified World War II Veterans Act of 2009, was 
introduced by Congressman Buyer on May 6, 2009. It seeks to establish a 
compensation fund to make payments to qualified World War II veterans 
on the basis of certain qualifying service.
    The DAV has no resolution on this bill. It also falls outside the 
scope of our organization's mission. However, we have no objection to 
its favorable consideration.
                   MATERIAL SUBMITTED FOR THE RECORD
                                U.S. Department of Veterans Affairs
                                      Secretary of Veterans Affairs
                                                   Washington, D.C.
                                                     August 5, 2009

The Honorable Bob Filner
Chairman
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    I write to provide the views of the Department of Veterans Affairs 
(VA) on H.R. 2270, the ``Benefits for Qualified World War II Veterans 
Act of 2009,'' and to provide a cost estimate for H.R. 1522, the 
``United States Cadet Nurse Corps Equity Act.'' Although the agenda for 
a May 21, 2009, legislative hearing before the Disability Assistance 
and Memorial Affairs Subcommittee of the House Committee on Veterans' 
Affairs included these bills, VA was unable to provide this information 
in time for that hearing.
H.R. 2270
    H.R. 2270 would establish in the U.S. Treasury the ``Qualified 
World War II Veterans Equity Compensation Fund'' to fund payments by VA 
to certain eligible individuals who are recognized pursuant to section 
401 of the GI Bill Improvement Act of 1977 as having served on active 
duty.\1\ VA would pay $1,000 per month to each such individual who 
applies for these payments within 1 year from the date of enactment of 
this bill and has not received benefits under the Servicemen's 
Readjustment Act of 1944. The bill would authorize appropriations for 
the fund with no predetermined year of expiration. In addition, it 
would require VA to include in its budget submissions to Congress each 
year detailed reports about the administration of the compensation fund 
and, not more than 180 days after enactment, to prescribe regulations 
to carry out its provisions.
---------------------------------------------------------------------------
    \1\ The bill, at line 8 of page 3, erroneously refers to ``section 
1401'' of the GI Bill Improvement Act of 1977.
---------------------------------------------------------------------------
    VA does not support this bill. First, to the extent that H.R. 2270 
is intended to offer belated compensation to individuals whose civilian 
or contractual service is now considered active duty, these individuals 
and their survivors are already eligible for Veterans' benefits based 
on such service. Pursuant to the authority granted by section 401 of 
the GI Bill Improvement Act of 1977, Public Law 95-202, the Secretary 
of Defense has determined that the service of 33 such groups 
constituted active military service. As a result, these individuals are 
eligible for the same benefits and services, including health care and 
old age pensions, as other Veterans of active service. This bill 
appears to contemplate concurrent eligibility with benefits that 
members of these groups may already be receiving from VA, a special 
privilege unavailable to other Veterans.
    Second, although there can be no doubt that the service groups that 
were conferred Veteran status pursuant to section 401 of the GI Bill 
Improvement Act of 1977 were exposed to many of the same rigors and 
risks of service as those confronted by members of the Armed Forces 
during wartime, the universal nature and amount of the benefit that 
H.R. 2270 would provide for eligible individuals are difficult to 
reconcile with the benefits VA currently pays to other Veterans. H.R. 
2270 would create what is essentially a service pension for particular 
classes of individuals. Furthermore, this bill would authorize the 
payment of a benefit to the members of these groups, based simply on 
qualifying service, greater than a Veteran currently receives for a 
service-connected disability rated as 60 percent disabling.
    During the May 21, 2009, hearing, the Subcommittee on Disability 
and Memorial Affairs requested VA to include in its supplemental 
written testimony the number of Veterans remaining from each of the 
service groups that would be eligible for this benefit. However, this 
information is not available to VA. Currently, 33 groups, identified in 
38 C.F.R. Sec. 3.7(x), have been recognized pursuant to section 401 of 
the GI Bill Improvement Act of 1977 as having performed active military 
service. VA confirms Veteran status for individuals from these groups 
if they apply for VA benefits, but VA does not maintain statistics on 
the various organizations in which they served.
    VA estimates that enactment of H.R. 2270 would result in a total 
additional benefit cost of approximately $185.5 million in the first 
fiscal year and $780.6 million over 10 years. It would result in 
additional administrative costs of $490,000 for the first year and $2.6 
million over 10 years.
H.R. 1522
    H.R. 1522, the ``United States Cadet Nurse Corps Equity Act,'' 
would deem participation in the United States Cadet Nurse Corps during 
World War II to have been active duty in the Armed Forces for VA 
benefit purposes, but would prohibit the payment of benefits resulting 
from its enactment for any period before the date of enactment. VA 
estimates that enactment of H.R. 1522 would result in a total 
additional benefit cost of approximately $14.5 million in the first 
fiscal year and $79.9 million over 10 years. It would result in 
additional administrative costs of $1.9 million for the first year and 
$12.3 million over 10 years.
    The Office of Management and Budget has advised that there is no 
objection to the submission of this report from the standpoint of the 
Administration's program.

            Sincerely,

                                                   Eric K. Shinseki

                                  <all>

</pre></body></html>
